               Department of the Interior
               Office of Inspector General




             INTERIOR MISSTATED
            ACHIEVEMENT OF SMALL
              BUSINESS GOALS BY
            INCLUDING FORTUNE 500
                   COMPANIES

July 2008    Report No. W-EV-MOI-0003-2008
                          United States Department of the Interior

                                           Office of Inspector General
                                                 Washington, D.C. 20240




Memorandum

To:            P. Lynn Scarlett
               Deputy Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Evaluation Report – Interior Misstated Achievement of Small Business Goals by
               Including Fortune 500 Companies.
               (Report No. W-EV-MOI-0003-2008)

       This report presents our evaluation to determine if the Department of the Interior (DOI) and its
bureaus have accurately reported their small business contracting achievements (see Appendix 1).

        We found about $5.7 million in awards to large businesses for which DOI received small
business credit in fiscal years 2006-2007. Several of the businesses are obviously large, such as Home
Depot, John Deere, Dell, Sherwin Williams, Starwood Hotels and Waste Management. These awards
were included in the accomplishments reported by DOI’s Office of Small and Disadvantaged Business
Utilization and in the SBA Small Business Goaling Reports for fiscal years 2006 and 2007.

       The main reasons that contracts to large businesses have been incorrectly coded as small
business contracts relate to data entry mistakes, reliance on incorrect data, and a failure on the part of
contracting officials to verify business size reported in Central Contractor Registration.

        The intent of the Small Business Act is to aid, counsel, assist, and protect the interests of small
business concerns. However, unreliable data and data entry mistakes including errors caused by the
failure of contracting officers to consistently verify business size have not protected small business
interests. In order to improve the reliability and accuracy of the Department of the Interior’s small
business procurement data, we made three recommendations.




                                                      i
Table of Contents




Background ..................................................................................................................................... 1
Results of Evaluation ...................................................................................................................... 2
Recommendations ........................................................................................................................... 4
Appendices
       Objective, Scope and Methodology .................................................................................... 5
       Sites Visited ........................................................................................................................ 6
       Prior Audit Coverage .......................................................................................................... 7
       Businesses Incorrectly Coded as Small Businesses ............................................................ 9
       Glossary ............................................................................................................................ 10




Acronyms
           8(a) ...................................................................... The 8(a) Business Development Program
           ANC ......................................................................................... ..Alaska Native Corporation
           CCR..................................................................................... Central Contractor Registration
           DOI ..................................................................................... U.S. Department of the Interior
           DSBS................................................................................. Dynamic Small Business Search
           DUNS ............................................................................ Data Universal Numbering System
           FAR ..................................................................................... Federal Acquisition Regulation
           FPDS-NG ......................................... Federal Procurement Data System—Next Generation
           GAO .............................................................................. Government Accountability Office
           GSA................................................................................... General Services Administration
           HUBZone ............................................................ Historically Underutilized Business Zone
           OFPP ......................................................................... Office of Federal Procurement Policy
           ORCA .............................................Online Representations and Certifications Application
           SBA ...................................................................................... Small Business Administration
           SDB ...................................................................................... Small Disadvantaged Business




                                                                            ii
Background                                                                             The Central Contractor
                                                                                       Registration (CCR) is the
In the Small Business Act of 1953, Congress                                            primary vendor database
voiced its conviction that the Federal                                                 for the federal
                                                                                       government. The CCR
Government should “aid, counsel, assist, and            collects, validates, stores and disseminates data in
protect…the interests of small business                 support of agency acquisition missions. Vendors are
concerns…to insure that a fair proportion of the        required to register in CCR in order to be awarded
total purchases and contracts or subcontracts for       government contracts and they must update or renew
property and services for the Government …be            their registration annually to maintain an active status.
placed with small business enterprises.” Each           The Online
federal agency establishes an annual goal that          Representations
represents the maximum practicable opportunity          and Certifications
for small business concerns to participate in the       Application
performance of contracts let by that agency.            (ORCA) allows
                                                        contractors to enter their Representations and
                                                        Certifications for use on all federal contracts. ORCA
Today, generally speaking, the term “small              is complementary to CCR and pre-populates some
business” encompasses the following groups of           fields with data from CCR.
businesses (see the Glossary for descriptions):
• Small Business concerns,                                                     SBA’s Dynamic Small
                                                                               Business Search (DSBS) is a
• Small Disadvantaged Business (SDB)
                                                                               database that increases
   concerns,                                                                   contracting opportunities for
• Historically Underutilized Business Zone                                     small businesses. DSBS is
   (HUBZone) concerns,                                  automatically populated with business information
• 8(a) Program Small Business concerns,                 from CCR.
• Service Disabled Veteran-Owned Small
                                                        The Federal Procurement Data System – Next
   Business concerns,                                   Generation (FPDS-NG) was launched by GSA on
• Veteran-Owned Small Business concerns,                October 1, 2003. It is the central repository of
   and                                                  information on federal contracting and includes
• Woman-Owned Small Business concerns.                  contracting data beginning with fiscal year 2004.


Some small business groups, such as SDB,
HUBZone, and 8(a), are required to be formally
certified by the Small Business Administration
(SBA) in order to receive small business
benefits. Other small business groups merely
self-represent their business status.                   USASpending.gov was launched on December 13,
                                                        2007 by OMB as a result of the Federal Funding
Ongoing concerns over the accuracy of small             Accountability and Transparency Act of 2006 which
business goal achievement and the reliability of        required a single searchable website, accessible by the
                                                        public for free, that includes detailed information
procurement data in the Federal Procurement             about each federal award, including contracts. It is
Data System-Next Generation (FPDS-NG),                  modeled after a system created by OMB Watch, a non-
Central Contractor Registration (CCR), and              profit organization.
Online Representations and Certifications
(ORCA) have been cited in previous reports by
the Government Accountability Office (GAO),
SBA’s Office of Inspector General, and SBA’s
Office of Advocacy. These reports found that
agencies counted awards made to large and other

                                                    1
ineligible businesses towards their small                                Fortune 500 Companies
business procurement goals (For a complete list                                                       Revenue
of prior audit coverage, see Appendix 3).                        Company                       Rank ($ billions)
                                                                 Home Depot                       17         90.84
The Department of the Interior’s (DOI) Office of                 Dell                             34         57.10
Small and Disadvantaged Business Utilization
                                                                 John Deere                       98         22.77
(Utilization Office) strives to improve and
increase the Department's performance in                         Weyerhaeuser                    105         22.25
utilizing small businesses as contractors and                    Xerox                           145         15.90
subcontractors. Last year, DOI bureaus awarded
                                                                 Waste Management                181         13.36
approximately $1.6 billion dollars to small
business entities. In fiscal year 2007, the                      Sherwin Williams                309           7.81
Department achieved its overall small business                   McGraw-Hill                     366           6.26
goal.                                                            Starwood Hotels                 381           5.98
                                                                 These Fortune 500 companies were included in
Results of Evaluation                                            DOI’s small business goal achievement for FY 2006-
                                                                 2007.

Unreliable data, including errors caused by the
failure of contracting officers to consistently                  policy memorandum states that each bureau is
verify business size, resulted in the inclusion of               required to review a statistical sample of data
large businesses and other ineligible groups1,                   each quarter and PAM will conduct an additional
including Fortune 500 companies, in the                          review at the Department level each quarter.
Department’s small businesses goal achievement                   Despite these attempts, errors continue to be
data. Incorrect data brings into question the                    made and often go unnoticed.
accuracy of the small business goal achievement
reported by DOI. The following table shows the                   We reviewed FPDS-NG data and found about
Fortune 500 companies that received small                        $5.7 million in awards to large businesses for
business contracts in fiscal years 2006 and 2007.                which DOI received small business credit in
A complete list of large businesses and other                    fiscal years 2006 and 2007. Several of the
ineligible groups that received small business                   businesses are obviously large, such as Home
contracts is provided in Appendix 4.                             Depot, John Deere, Dell, Sherwin Williams,
                                                                 Starwood Hotels and Waste Management. These
FPDS-NG is the only government-wide system                       awards were included in the accomplishments
that tracks federal contracts. In its reports over               reported by DOI’s Utilization Office and in the
the past several years, GAO has consistently                     SBA Small Business Goaling Reports for fiscal
reported FPDS-NG inaccuracies that resulted                      years 2006 and 2007.
from data entry errors.
                                                                 The main reasons that contracts to large business
To deal with inaccuracies within the Department,                 have been incorrectly coded as small business
DOI’s Office of Acquisition and Property                         contracts relate to data entry mistakes, reliance
Management (PAM) has issued a number of                          on incorrect data, and a failure on the part of
policy statements in its attempt to ensure the                   contracting officials to verify business size
accuracy of contract data in FPDS-NG. A 2004                     reported in CCR.

1.   Other ineligible businesses include entities in the
     public administration sector, such as Federal, State,
     and local governments as well as state universities.
     Small business size standards are not established for
     this sector.

                                                             2
Data entry mistakes                                      contracts to divisions of Waste Management in
                                                         fiscal years 2006 and 2007. Of the six
FPDS-NG, which replaced the earlier generation           contracting officers contacted regarding small
FPDS in 2003, was designed to eliminate many             business contracts to Waste Management, five of
types of data entry mistakes. For example, many          them said that Waste Management had been
of the data fields are now automatically                 incorrectly coded as a small business. The
populated from the CCR database. In addition,            contracting officers told us they did not check
PAM created policies for the bureaus and their           CCR prior to awarding the contract. If they had
contracting officers to ensure the data entered          checked CCR they would have discovered that
into FPDS-NG was accurate. In its June 2004              Waste Management was not a small business.
policy memorandum, PAM placed special
emphasis on correct vendor size determinations.                “If contracting officers did their job
The policy also established a procurement data                [FPDS-NG errors] wouldn’t happen.”
quality control plan which involves periodic
                                                                     — DOI Contracting Officer
reviews of FPDS-NG data.

In FY 2006, PAM issued another policy calling            Further, we also found errors resulting from the
for greater attention to the accuracy of data            way in which GSA Schedule orders were entered
submitted by reporting and reviewing personnel,          in FPDS-NG. Contracting officers told us that
especially the business size status and all              GSA orders should be entered in FPDS-NG as
socioeconomic information. In FY 2007, PAM               delivery orders that reference the GSA contract,
required bureaus to confirm in their FPDS-NG             in which case the system automatically pre-fills
certifications that vendor size determinations           many of the fields with information from the
were correct in relation to the ORCA database.           GSA contract. In a couple of cases, we found
In addition, FAR requires contracting officers to        that DOI contracting officers had entered GSA
verify that a prospective contractor is registered       orders in FPDS-NG as purchase orders instead of
in CCR before awarding a contract.                       delivery orders, thereby bypassing the entry of
                                                         the GSA contract number. As a result, the
Despite these policies, contracting officers             contracting officers were able to make their own
erroneously recorded contracts to large                  determinations regarding business size. In one
businesses as small business contracts. For              case, GSA had correctly determined that the
example, John Deere and Waste Management                 vendor was a large business, yet the DOI
were coded as small businesses in FPDS-NG,               contracting officer was able to erroneously
and, as a result, contracts to these companies           record it as an SBA set-aside to a small business.
were included in DOI’s achievement of its small          A contracting officer told us that they had
business goal. Contracting officers admitted that        recently received training regarding the proper
these companies are not small and were                   entry of GSA acquisitions as delivery orders,
incorrectly coded as small.                              rather than purchase orders.

       “Contracting officers often click                 In several cases, contracting officers that we
      through mindlessly when entering                   spoke with corrected errors in FPDS-NG that
           contracts in FPDS-NG.”                        were brought to their attention. Conversations
                                                         with contracting personnel highlighted the need
           — DOI Contracting Officer                     for increased attention to small business
                                                         procurements, including the importance of
                                                         accurate FPDS-NG data entry.
In addition, we found that contracting officers
failed to consistently check CCR prior to award.
For example, DOI issued several small business

                                                     3
Reliance on incorrect data                              business, it is imperative that the information
                                                        contained in CCR is correct and that contracting
In some cases, unreliable data was the result of        officers are consistent and diligent in verifying
contracting officers who relied on information in       vendor size.
CCR, ORCA, or FPDS-NG that was not correct.
Businesses are required to update their CCR             DOI contracting officers also rely on incorrect
profile each year; however, we found CCR                size determinations made by other agencies. For
registrations containing data that was either           interagency contracts and contracts for multi-
extremely outdated or simply incorrect.                 agency use, such as blanket purchase
                                                        agreements, indefinite delivery/indefinite
For example, we identified three divisions of           quantity contracts, GSA Schedule contracts, and
Xerox Corporation that are currently listed as          government-wide acquisition contracts, the size
small businesses in CCR. Two of the divisions           determination is made by the contracting officer
are also identified as small businesses in the          who awarded the initial contract. When that
Dynamic Small Business Search (DSBS)                    contracting officer incorrectly codes a contract as
database of CCR. Xerox Corporation ranks                small business, the error is reflected on all
#145 on Forbes Fortune 500 companies and is             subsequent task orders. FPDS-NG prevents
not a small business. We also found that John           modification of size determinations so the only
Deere Construction & Forestry, a division of the        recourse that DOI contracting officers have is to
John Deere Company, is listed as a small                request that the contracting officer that initiated
business in CCR, ORCA, and DSBS. In its                 the original contract make the correction.
ORCA registration, John Deere Construction &            Contracting officers informed us that GSA is
Forestry claimed that it had fewer than 500             slow to respond to such requests.
employees and less than $2 million in annual
revenue. However, the John Deere Company                Recommendations
has about 50,000 employees and about $22
billion in annual revenue and does not qualify as       In order to improve the reliability and accuracy
a small business.                                       of DOI’s procurement data, we make the
                                                        following recommendations:
In yet another example, Dell Federal Systems
GP LLC, a subsidiary of Dell Incorporated, is           1. Contracting officers that question the size
identified as a small business in its CCR                  information reported in a CCR registration
registration. Dell Incorporated, however, ranks            should contact the appropriate Small
#34 on Forbes Fortune 500 with over $57 billion            Business Administration office to request a
in annual revenue.                                         size standard review.
In the examples above, contracting officers
                                                        2. The Department and bureaus should continue
recorded contracts to these vendors as “small
                                                           verifying and validating FPDS-NG data,
business” in FPDS-NG based on the information
                                                           paying special attention to business size
found in CCR. In the case of Dell Federal
                                                           determinations. This will include review of
Systems GP LLC, DOI issued 45 contract
                                                           FPDS-NG data during cyclical internal
actions in fiscal years 2006 and 2007, totaling
                                                           control reviews.
$281,490. Despite the fact that contracting
officers correctly determined Dell was a large
                                                        3. Training for contracting officers and business
business for 41 of those actions, the opportunity
                                                           utilization specialists should place more
exists for contracting officers to make mistakes
                                                           emphasis on the importance of correctly
by relying on incorrect information in CCR.
                                                           determining a business’s size to insure the
Because contracting officers rely on CCR to
                                                           accuracy of the Department’s small business
determine whether or not a vendor is a small
                                                           goals.
                                                    4
Objective, Scope and Methodology                                                           Appendix 1




Objective
To determine if the Department of the Interior and its bureaus have accurately reported their small
business contracting achievements.

Scope
The evaluation covered the Department of the Interior and its bureaus for fiscal years 2006 and 2007.
The review did not include procurements made by DOI on behalf of other agencies. SBA OIG was
consulted during the survey to determine specific areas for review.

Methodology
To accomplish the evaluation objective, we:

      •   Conducted the evaluation in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.

      •   Gained an understanding of the Department’s small business contracting program by
          interviewing Department and bureau officials at the headquarters, regional, and field office
          levels.

      •   Analyzed contract data in FPDS-NG for fiscal years 2006 and 2007. We reviewed 472
          contract actions in FPDS-NG representing .3% of total actions in fiscal years 2006 and 2007.
          We excluded contracts awarded by DOI on behalf of other federal agencies. Our analytical
          techniques included stratifying high dollar small business vendors and an alphabetical scan
          in FPDS-NG of small business vendors.

      •   Visited selected sites to review contract files and discuss small business contracting issues
          with contracting officials. We reviewed 52 contract files during site visits. We selected sites
          based on preliminary assessments that identified the level of small business contracting at
          each contracting office (See Appendix 2).

      •   Reviewed management processes for verifying and validating the reliability of data in the
          Federal Procurement Data System-Next Generation.




                                                   5
Sites Visited                                                                     Appendix 2



                                Bureau of Indian Affairs
      Central Office, Office of Acquisition and Property Management, Reston, VA

                           Bureau of Land Management
                       California State Office, Sacramento, CA
                        Colorado State Office, Lakewood, CO

                              Bureau of Reclamation
                    Mid-Pacific Regional Office, Sacramento, CA

                          U.S. Fish and Wildlife Service
                   Headquarters, Washington Office, Arlington, VA
                    Mountain-Prairie Regional Office, Denver, CO

                           Minerals Management Service
                             Headquarters, Herdon, VA

                                National Park Service
                     Intermountain Regional Office, Denver, CO
                          Pacific West Region, Oakland, CA

                             Office of Surface Mining
                           Headquarters, Washington, DC
                   Division of Financial Management, Denver, CO

                                  Office of Secretary
           Office of Acquisition and Property Management, Washington, DC
       Office of Small and Disadvantaged Business Utilization, Washington, DC
      National Business Center Acquisition Services Directorate, Washington, DC
       National Business Center Acquisition Services Directorate, Herndon, VA
        National Business Center Acquisition Services Directorate, Denver, CO

                              U.S. Geological Survey
                     Headquarters, National Center, Reston, VA
                  Branch of Acquisition and Grants, Sacramento, CA




                                         6
Prior Audit Coverage                                                      Appendix 3 (Page 1 of 2)




DOI OIG, SBA OIG, SBA Office of Advocacy, and GAO recently issued reports that were applicable
to our evaluation. These reports are listed below.

OIG
February, 2008 — Sole Source Contracting: Culture of Expediency Curtails Competition in
Department of the Interior Contracting (W-EV-MOA-0001-2007). The OIG found that the percentage
of contracting dollars spent by DOI on 8(a) sole-source contracts was significantly higher than the
government as a whole. Acquisition officials stated that sole-source contracts to 8(a) firms are faster
and easier and help their bureaus meet small business goals. OIG found that GovWorks circumvented
competition among 8(a) firms by awarding consecutive contracts to the same contractor for just under
the competition threshold. OIG also found that NPS improperly split an 8(a) contract into multiple
contracts to avoid competing the contract among other 8(a) firms.

SBA OIG
June, 2007 — Size Determinations Made by District Offices (7-27). SBA OIG found the district
offices surveyed reported that they generally did not follow SBA regulations when determining
whether companies qualified as small for 8(a) procurements. Under SBA regulations, size
determinations must be based on payroll records from the preceding 12 months for employee-based
size standards, and on tax returns for revenue-based standards.

March, 2007 — The Central Contractor Registration Needs Large Business and Small Business
Designation Improvements (6-18). SBA OIG found that CCR can contain contradictory size
information on companies. CCR has two sections that reflect a company's size information and the
information in one section can mistakenly contradict the information in the other section. This occurs
because there are no checks in the CCR registration process to ensure consistency between the two
sections.

March, 2005 — Review of Selected Small Business Procurements (5-16). The SBA OIG found that, of
the contracts reviewed, one small business set-aside contract was improperly awarded, and multiple
award contracts were issued based on improper certification.

February, 2005 — Large Businesses Receive Small Business Awards (5-15). SBA OIG found that
flaws in the federal procurement process allow large firms to receive small business awards and
agencies to receive small business credit for contracts performed by large firms.

February, 2005 — SBA Small Business Procurement Awards Are Not Always Going To Small
Businesses (5-14). SBA OIG found that large business contract actions were reported as small business
awards. SBA determined this was happening based on the following: "life of contract", inconsistent
regulations, and GSA Schedules problems.



                                                   7
Prior Audit Coverage                                                        Appendix 3 (Page 2 of 2)




SBA Office of Advocacy
December, 2004 — Analysis of Type of Business Coding for the Top 1,000 Contractors Receiving
Small Business Awards in FY 2002 (Report was prepared by Eagle Eye Publishers, Inc. under contract
#SBAHQ-02-M0465). Of the top 1,000 small business contractors in FY 2002, Eagle Eye Publishers’
identified 44 parent companies as either large firms or “other.” Contracts to these two groups taken
together had a total value of $2 billion. The coding problem could have been a result of erroneously
assigned type-of-business codes, a large firm’s acquisition of a smaller firm during the fiscal year, or a
small firm growing out of its size classification.

GAO
April, 2006 — Contract Management: Increased Use of Alaska Native Corporations' Special 8(a)
Provisions Calls for Tailored Oversight (GAO-06-399). GAO found that contracting officials did not
always comply with certain requirements, such as notifying SBA of contract modifications and
monitoring the percent of work that is subcontracted. Obligations to Alaska Native Corporations
(ANC) quadrupled between 2000 and 2004. Contracting officials told GAO that using ANC firms
under the 8(a) program allows them to quickly, easily, and legally award contracts for any value.
According to GAO, SBA failed to consistently determine whether awards to 8(a) ANC firms resulted
in other small businesses losing contract opportunities. In general, the contracting officers that GAO
spoke to were confused about whose responsibility it is to monitor compliance with subcontracting
limitations.

May, 2003 — Contract Management Reporting of Small Business Contract Awards Does Not Reflect
Current Business Size (GAO-03-704T). GAO found the predominant cause for the misreporting of
small business achievements is that federal regulations generally permit a company to be considered as
a small business over the life of the contract—even if they have grown into a large business, merged
with another company, or been acquired by a large business. In today’s federal contracting
environment, contracts can extend up to 20 years. In addition, agencies relied on various databases
containing inaccurate information on current business size.  
 
Acquisition Advisory Panel
January, 2007 — Report of OMB’s Acquisition Advisory Panel to the Office of Federal Procurement
Policy and the United States Congress. The Acquisition Advisory Panel found that inaccurate user
data entry compromised the usefulness of FPDS-NG data. The Panel uncovered impossible pairings of
supply and NAICS codes, GSA Schedule orders incorrectly identified as noncommercial, and GSA
Schedule orders that were reported as something other than a GSA Schedule order. The Panel
recommended that Inspector General audits should include sampling to compare FPDS-NG data to the
official contract file. They recommended the sampling be done on an ongoing basis, to provide
oversight in this area.


                                                    8
Businesses Incorrectly Coded as
Small Businesses*                                                                               Appendix 4




                                  Ineligible Large Businesses
  Vendor Name                                                              FY 06             FY 07
  Dell Incorporated                                                          $51,149           $350,827
  GTSI Incorporated                                                          $14,744           $157,940
  Home Depot                                                                       $0            $7,182
  John Deere Company                                                        $390,881           $227,137
  McGraw-Hill Companies                                                      $14,140                 $0
  Ricoh Corporation                                                          $12,662             $7,053
  Sherwin Williams Company                                                   $10,002                 $0
  Starwood Hotels & Resorts Worldwide, Incorporated                            $7,220            $4,158
  Waste Management, Incorporated                                             $26,677           $217,678
  Weyerhaeuser Company                                                         $4,013            $2,151
  World Wide Technology                                                            $0           $12,263
  Xerox Corporation                                                          $31,813            $43,341
                                                            Subtotal:       $563,301         $1,029,730

                                   Ineligible Other Businesses
  Vendor Name                                                              FY 06             FY 07
  Arizona Department of Game & Fish                                                 $0           $5,000
  Montana Department of Justice                                                     $0          $17,010
  Native Village of Savoonga                                                    $3,500               $0
  Native Village of Selawik                                                     $7,843           $8,750
  Navajo Nation Tribal Government                                               $2,500           $5,105
  Navajo Tribal Utility Authority                                           $2,929,935         $987,592
  University of Cincinnati                                                          $0           $5,525
  University of Georgia                                                             $0           $9,730
  University of Illinois                                                            $0           $5,536
  University of Maine System                                                        $0          $13,044
  University of Maryland Center for Environmental Science                           $0          $21,561
  University of Montana System                                                  $9,744               $0
  University of North Carolina at Greensboro                                        $0          $10,241
  University of Wisconsin Engineering Technical Services                            $0           $4,083
  University of Wisconsin System                                                    $0          $14,125
  University of Wyoming                                                             $0           $1,500
  United States Geological Survey                                              $10,000               $0
  Ute Mountain Ute Tribe                                                       $75,000               $0
  Wyoming State Veterinary Laboratory                                             $815               $0
                                                         Subtotal:          $3,039,337       $1,108,802

                                                               Total:       $3,602,638       $2,138,532


  *As determined from our review of FPDS-NG data. Some vendors include affiliates with separate DUNS
  numbers.

                                                    9
Glossary                                                                                                Appendix 5



8(a) — The 8(a) Business Development Program offers a broad scope of assistance to socially and economically
disadvantaged firms. 8(a) firms automatically qualify for SDB certification. Status is determined through
formal certification with SBA.

Blanket Purchase Agreement — A blanket purchase agreement is a simplified method of filling anticipated
repetitive needs for supplies or services by establishing “charge accounts” with qualified sources of supply (FAR
Part 13.303).

HUBZone — Historically Underutilized Business Zone Empowerment Contracting Program stimulates
economic development and creates jobs in urban and rural communities by providing contracting preferences to
small businesses. HUBZone firms must employ staff who live in a HUBZone and must maintain a principal
office in one of these specially designated areas. Status is determined through formal certification with SBA.

NAICS — The North American Industry Classification System (NAICS) is an industry classification system
used by the statistical agencies of the United States for classifying business establishments. The NAICS code
describes what is being purchased and is required on every acquisition above $2,500. The contracting officer
determines the appropriate NAICS code based on a thorough review of the acquisition documentation.

Office of Small and Disadvantaged Business Utilization — Establishment of an Office of Small and
Disadvantaged Business Utilization is required for each procuring federal agency by the SBA Act.

Set-Asides — Small business set-asides are procurements reserved exclusively for small business participation
and includes the Small Business Reserve, set-asides above the simplified acquisition threshold, the Small
Business Competitiveness Demonstration Program, the HUBZone Empowerment Contracting Program, and the
Service Disabled Veteran Owned Small Business Program. The FAR requires that simplified acquisitions, with
a value between $3,000 and $100,000, be set-aside for small businesses.

Size Standard — The term “size standard” describes the numerical definition of a small business. In other
words, a business is considered “small” if it meets or is below an established size standard. SBA has established
two widely used size standards; 500 employees for most manufacturers and $6.5 million in average annual
receipts for most nonmanufacturing industries. However, many exceptions exist.

Small Business — A small business is a concern that is organized for profit, with a place of business in the
United States, and which operates primarily within the United States or makes a significant contribution to the
U.S. economy through payment of taxes or use of American products, materials, or labor. Further, the concern
cannot be dominant in its field, on a national basis. Finally, the concern must meet the numerical small business
size standard for its industry. SBA has established a size standard for most industries in the U.S. economy.

Small Disadvantaged Business — A Small Disadvantaged Business (SDB) is a small business concern that is
at least 51 percent owned by one or more individuals who are both socially and economically disadvantaged.
SBA certifies SDBs to make them eligible for special bidding benefits.




Sources: Guide to SBA’s Definitions of Small Business, Integrated Acquisition Environment Frequently Asked Questions,
         and DOI Utilization Office’s Small Business Pocket Guide.



                                                          10
